<html>
<title> - IMPLEMENTING LEGISLATION FOR THE AGREEMENT BETWEEN THE GOVERNMENT OF THE UNITED STATES AND THE GOVERNMENT OF THE RUSSIAN FEDERATION ON THE CONSERVATION AND MANAGEMENT OF THE ALASKA-CHUKOTKA POLAR BEAR POPULATION</title>
<body><pre>[Senate Hearing 109-252]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-252
 
                   IMPLEMENTING LEGISLATION FOR THE 
     AGREEMENT BETWEEN THE GOVERNMENT OF THE UNITED STATES AND THE 
              GOVERNMENT OF THE RUSSIAN FEDERATION ON THE 
                  CONSERVATION AND MANAGEMENT OF THE 
                 ALASKA-CHUKOTKA POLAR BEAR POPULATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                    U.S. GOVERNMENT PRINTING OFFICE
25-673                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 14, 2005................................     1
Statement of Senator Inouye......................................     2
    Prepared statement...........................................     2
Statement of Senator Stevens.....................................     1

                               Witnesses

Johnson, Charles H., Executive Director, Alaska Nanuuq Commission     4
    Prepared statement...........................................     6
Jones, Marshall, Deputy Director, U.S. Fish and Wildlife Service, 
  Department of the Interior.....................................     2
    Prepared statement...........................................     3


 IMPLEMENTING LEGISLATION FOR THE AGREEMENT BETWEEN THE GOVERNMENT OF 
                       THE UNITED STATES AND THE 
                       GOVERNMENT OF THE RUSSIAN 
 FEDERATION ON THE CONSERVATION AND MANAGEMENT OF THE ALASKA-CHUKOTKA 
                         POLAR BEAR POPULATION

                              ----------                              


                       MONDAY, NOVEMBER 14, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                     Washington DC.
    The Committee met, pursuant to notice, at 11:30 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. Today's hearing will discuss 
the need to establish a regulatory framework in both Russia and 
Alaska for the shared polar bear population. In order to 
establish this regulatory course of action we need to pass 
legislation that will implement the agreement between the 
United States and Russia on the conservation and management of 
polar bears.
    The United States and Russia signed a bilateral Polar Bear 
Conservation agreement, also known as the ``Polar Bear 
Treaty,'' for the shared polar bear population in October of 
2000. The purpose of the Polar Bear Treaty is to assure long-
term, science-based conservation of the polar bear population 
and includes binding harvest limits.
    Currently illegal harvest of polar bears in Russia is 
significant and at levels that in the past caused population 
depletion. In Alaska, subsistence hunting by Natives is 
unrestricted provided the population is not depleted. However, 
without implementing legislation to enforce agreements on the 
conservation and management of the polar bear population, 
depletion could result.
    Today's hearing will have two witnesses. Mr. Marshall 
Jones, Deputy Director of the U.S. Fish and Wildlife Service, 
at the Department of the Interior, and Mr. Charlie Johnson. 
Charlie is Executive Director of the Alaska Nanuuq Commission.
    On short notice Charlie was kind enough to fly here from 
Nome, Alaska. For those of you that don't know how far away 
Nome is from Washington DC, the distance is about as far as it 
is from here to Paris, France.
    Charlie, I really appreciate you coming so far on short 
notice. The Committee really appreciates you coming a short 
distance. Let me yield to our Co-Chairman to see if he has 
remarks.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Well Mr. Chairman, I'm pleased that you 
invited me to join you today. It is a new issue for me, but I 
can assure you that I support this Agreement, and I support its 
implementation and I'll do my best to see that this is carried 
out. I gather that we may have a mark-up soon on this.
    The Chairman. We hope to, that's why we're having the 
hearing today, we hope to have the mark-up on Thursday, 
Senator.
    Senator Inouye. If I may, may I have my statement placed in 
the record?
    The Chairman. Yes, without objection.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    The U.S.-Russia Polar Bear Agreement is very important--both for 
the preservation of the population of polar bears that live in Alaska 
and in parts of Russia--and for the Native peoples who have long relied 
on these animals for their subsistence needs.
    The Agreement establishes a structure for bilateral management of 
this shared population, including the setting of binding harvest 
limits, bans on certain hunting practices, and close scientific 
cooperation. Importantly, Native organizations in both countries will 
play a major role in managing and implementing the Agreement.
    This Agreement was signed in 2000 by the governments of the United 
States and Russia. The Senate has already provided its advice and 
consent on the Agreement.
    The next step is to pass implementing legislation. I look forward 
to working with Chairman Stevens to develop and pass such legislation 
quickly.

    The Chairman. Let us first hear from Mr. Jones.

  STATEMENT OF MARSHALL JONES, DEPUTY DIRECTOR, U.S. FISH AND 
              WILDLIFE SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Jones. Thank you Mr. Chairman, and Senator Inouye. 
Thank you for the opportunity to testify on the U.S.-Russia 
Polar Bear Agreement. I'm Marshall Jones, the Deputy Director 
of the U.S. Fish and Wildlife Service. We greatly appreciate 
your interest in this Agreement and your leadership in moving 
the implementing legislation forward.
    The United States and Russia share the Bering-Chukchi Sea 
polar bear population which is now facing significant currently 
unregulated harvest. In Russia despite the 1956 all-union ban 
on polar bear hunting, harvest is now occurring at levels that 
could deplete the population when combined with the legal 
subsistence harvest in Alaska. In recognition of the need for 
unified management of the shared polar bear population the 
United States and Russian Representatives negotiated this 
bilateral Agreement on the Conservation and Management of the 
Chukchi Sea Polar Bear Population. That effort, Mr. Chairman, 
started in 1990, with the first meetings of the two sides. 
That's 15 years ago, and so this is a very historic day for us, 
for Alaskan Native peoples, for peoples in Russia and for polar 
bears.
    The Agreement was signed by the two countries in October of 
2000 and Senate advice and consent was provided on the treaty 
in July of 2003. What we now need is what is before us now, 
what you've introduced, or are introducing--the implementing 
legislation. The purpose of the Polar Bear Agreement is to 
ensure the long-term science-based conservation of the Alaska 
Chukotka polar bear population. The Agreement addresses a 
particular concern, which is the widely different harvest 
provisions and practices on the U.S. side and the Russian side 
of the population. While lawful harvest by Alaska Natives for 
subsistence purposes occurs in Alaska, U.S. law does not allow 
restriction of this harvest, unless the polar bear population 
were to become depleted under the Marine Mammal Act, or 
threatened or endangered under the Endangered Species Act. The 
Agreement and the implementing legislation which you now have 
before you will represent a major step forward for polar bear 
conservation, and will enhance our collaborative efforts with 
Russia for shared natural resources.
    We look forward to working with the Committee on the 
legislation to implement the Agreement.
    Mr. Chairman, in closing I would like to state that the 
Administration is committed to conserving and managing polar 
bears by working with our partners in a cooperative fashion. 
Our partners in this effort have included various agencies of 
the U.S. Government, the Marine Mammal Commission, the 
Department of State, in addition to the Fish and Wildlife 
Service, the Alaska Department of Fish and Game, non-
governmental organizations and most especially our Alaska 
Native partners.
    And so it's a great pleasure to be here with Charlie 
Johnson, and, Mr. Chairman, we want to emphasize our commitment 
to continue this collaboration with the State of Alaska and 
with Alaska Native Community to conserve and manage polar 
bears.
    Mr. Chairman, this concludes my remarks, and I'd be happy 
to answer any questions.
    [The prepared statement of Mr. Jones follows:]

 Prepared Statement of Marshall Jones, Deputy Director, U.S. Fish and 
              Wildlife Service, Department of the Interior

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss the Agreement Between 
the Government of the United States of America and the Government of 
the Russian Federation on the Conservation and Management of the 
Alaska-Chukotka Polar Bear Population.
    Amendments to Section 113(d) of the Marine Mammal Protection Act 
enacted in 1994 directed the Service, for the United States, to enter 
into negotiations with Russia to enhance the conservation and 
management of polar bear stocks. Since 1990, the Service has worked to 
improve cooperative research and management programs with Russia for 
the conservation of polar bears. Significant progress has been made in 
this effort. Building on this progress, United States and Russian 
representatives negotiated a bilateral agreement on the conservation 
and management of the shared Chukotka polar bear population of the 
Chukchi and Bering Seas in February 1998. This landmark environmental 
conservation agreement was signed by the governments of United States 
and Russia on October 16, 2000, with Senate advice and consent provided 
on July 31, 2003. Legislation will be necessary to implement the 
Agreement, and in May 2004 the Administration transmitted proposed 
implementing legislation to Congress. Implementation of this bilateral 
Polar Bear Agreement will represent a major step forward for polar bear 
conservation, and enhance our collaborative efforts with Russia to 
conserve shared natural resources.
    The proposed U.S.-Russia Agreement would establish a common legal, 
scientific, and administrative framework for the conservation and 
management of the Alaska-Chukotka polar bear population. The purpose of 
the Polar Bear Agreement is to ensure the long-term, science-based 
conservation of the Alaska-Chukotka polar bear population. At present, 
polar bear harvest provisions and practices differ widely between the 
U.S. and Russia. Unknown (but potentially significant) levels of 
illegal harvest are occurring in Chukotka. While lawful harvest by 
Alaska Natives for subsistence purposes occurs in Alaska, U.S. law does 
not allow restrictions of this harvest unless a polar bear population 
is designated as ``depleted'' under the Marine Mammal Protection Act, 
or listed as ``threatened or endangered'' under the Endangered Species 
Act. The Russian Federation will soon open a lawful polar bear hunting 
opportunity for subsistence purposes by Native Chukotkans. When this 
happens, there will be an immediate, pressing need for the coordination 
of harvest restrictions on both sides of the border to prevent an 
unsustainable combined harvest. Such harvest could lead to the Alaska-
Chukotka polar bear population becoming depleted, threatened, or 
endangered. The Agreement will create a management framework to prevent 
this from happening.
    The Polar Bear Agreement calls for the development of binding 
harvest limits at sustainable levels, prohibits the harvest of denning 
bears and females with cubs, and restricts certain methods of hunting, 
such as hunting with aircraft or large vessels. Commercial uses of 
harvested polar bears are limited to the creation and sale of 
handicrafts by Native people. The Agreement enhances support for 
collaborative research by the United States and Russia and provides a 
mechanism to coordinate these efforts with Native organizations in each 
country. This will significantly increase our understanding of the 
biology of polar bears, which are difficult to study as they inhabit 
one of the most inaccessible and harsh environments in the world.
    The Polar Bear Agreement was developed through a sustained, 
inclusive and collaborative process over a 10 year period. The 
Agreement was fully coordinated with the Alaska Native community, 
representatives of the State of Alaska, the environmental community, 
and the Marine Mammal Commission. Representatives of these 
constituencies were members of the United States delegation that 
negotiated the terms of the Agreement and are fully committed to its 
goals.
    The Administration has reviewed the Polar Bear Agreement and has 
determined that implementation will result in tangible, on-the-ground 
benefits to polar bears, the flagship symbol of the Arctic. Our review 
also indicated that legislation is necessary to fully implement the 
science-based management measures called for in the Agreement. With 
this in mind, on May 20, 2004, the Administration transmitted to 
Congress proposed implementing legislation, which would, among other 
things, authorize the Department to establish prohibitions against take 
and provide the enforcement authority for implementing the Agreement; 
establish the membership of the United States section of the U.S.-
Russia Polar Bear Commission; clarify voting arrangements for Polar 
Bear Commission decisions; and authorize appropriations for activities 
associated with implementation of the Agreement. We appreciate your 
interest and support prompt passage of appropriate implementing 
legislation.
    Mr. Chairman, in closing, I would like to state that this 
Administration is committed to conserving and managing polar bears by 
working with our partners in a cooperative fashion. In particular, I 
want to emphasize the commitment to continued collaboration with the 
State of Alaska, and our partners in the Native community to conserve 
and manage this species. We look forward to working with you and 
Members of the Committee to implement the U.S.-Russia Polar Bear 
Agreement.
    Mr. Chairman, this concludes my remarks. I would be happy to answer 
any questions.

  STATEMENT OF CHARLES H. JOHNSON, EXECUTIVE DIRECTOR, ALASKA 
                       NANUUQ COMMISSION

    Mr. Johnson. Thank you Mr. Chairman, I am Charlie Johnson, 
Executive Director of the Alaska Nanuuq Commission which was 
formed in 1994 to represent the villages and hunters that 
harvest polar bears in Alaska. We are in our ninth year of a 
Cooperative Agreement with the U.S. Fish and Wildlife Service 
for the Conservation of Polar Bears in Alaska. Our current 
agreement includes feeding ecology studies on the North Slope, 
public education, predator prey studies, human bear 
interactions and very importantly cooperation with the Natives 
of Chukotka in Russia on the conservation of the shared polar 
bear population. We also have a cooperative agreement with the 
National Park Service Beringian Heritage Program for polar bear 
studies in Chukotka and with the National Marine Fisheries 
Service for ice seal studies in Alaska.
    The Alaska Nanuuq Commission participated as an equal 
partner with the U.S. Fish and Wildlife Service in the 
negotiation of this Polar Bear Agreement. Both the Service and 
Nanuuq Commission encouraged Russia to include representatives 
of the Native Peoples of Chukotka in this negotiation process, 
and for the most part they were involved.
    When the Russian ambassador to the United States Yuri 
Ushikov signed the Treaty on October 2000, he declared it the 
most democratic document that Russia had ever agreed to since 
the Treaty includes Alaska and Chukotka Natives on the Joint 
Commission that will set harvest limits and policies.
    For the first time in their history, Native Peoples of 
Chukotka are involved with the management of their marine 
subsistence resources, due largely to the way the Polar Bear 
Treaty was negotiated. The Association of Traditional Marine 
Mammal Hunters of Chukotka, a real grass roots organization 
participated with the Government of Chukotka and the Ministry 
of Natural Resources in the development of a very sound Polar 
Bear Management Plan for Chukotka. The plan was largely modeled 
on the Alaska Polar Bear Management Plan developed by the Fish 
and Wildlife Service.
    However the Ministry has informed us that they will not put 
the plan into effect in Chukotka including enforcement and 
protected areas will not be put into effect until the U.S. 
enacts the treaty. We find this very disturbing because as 
Marshall has mentioned and you have mentioned we know that 
polar bears are being harvested at alarming numbers in 
Chukotka. These numbers are unsustainable and they're similar 
to the level of harvest--the sport harvest prior to 1973.
    The enactment of this treaty is critical for the 
conservation and long term survival and conservation of our 
population. Additionally the Treaty has had a dramatic effect 
on promoting democracy in Chukotka. When we conducted 
interviews of elders in Chukotka with the Chukotka Association 
on their observations of polar bear habitat use, they were 
amazed that anyone, including government and NGO 
representatives were interested in their opinions and 
observations. For the first time their traditional knowledge 
has been used and valued by management.
    The Joint Commission created by that treaty will set 
harvest limits. However in order to maintain scientifically 
based sustainable harvest limits we must have a better estimate 
of the population size. Based on observations we estimate this 
population to be between 2,000 to 5,000 animals. The 
demographics of harvested animals indicate a healthy and stable 
population. So conducting a comprehensive population survey is 
the most pressing issue for these bears. This will take money 
and we feel that even if the U.S. has to bear the bulk of this 
cost we feel that it is worth the expense and very necessary.
    The Alaska Nanuuq Commission and the Association of 
Traditional Marine Mammal Hunters have drafted a Native to 
Native Agreement that will implement this Treaty. This 
Agreement will distribute quotas and insure compliance with the 
harvest limits.
    This draft Native to Native Agreement is modeled after an 
Agreement between the Inupiat of Alaska's North Slope and the 
Inuvialuit of the Northwest Territories of Canada on the 
Management of the Beaufort Sea population. This voluntary 
Agreement was drafted in 1980 when the Native Peoples became 
concerned that the harvest numbers might not be sustainable. 
The Agreement they drafted established a voluntary quota of 40 
bears for each side of the Alaska/Canadian Border. More 
importantly this voluntary Agreement protects females and 
females with cubs. As a result this population is stable and is 
thought to be growing, and the voluntary quota has not been 
exceeded and approximately only 85 percent of the quotas have 
been harvested.
    The U.S. Fish and Wildlife Service and the Ministry of 
Natural Resources recognizes the value of the involvement of 
the Native people, and support the development of the Native to 
Native Agreement. Mr. Chairman, the Alaska Nanuuq Commission 
wants our descendants and all people to enjoy polar bears as we 
have and this legislation will ensure that,
    Thank you.
    [The prepared statement of Mr. Johnson follows:]

     Prepared Statement of Charles H. Johnson, Executive Director, 
                        Alaska Nanuuq Commission

    Mr. Chairman,
    I am Charles Johnson, Executive Director of the Alaska Nanuuq 
Commission which was formed in 1994 to represent the villages and 
hunters that harvest polar bears in Alaska. We are in our ninth year of 
a Cooperative Agreement with the U.S. Fish and Wildlife Service for the 
Conservation of Polar Bears in Alaska. Our current Agreement includes 
feeding ecology studies on the North Slope, public education, predator 
prey studies, human bear interactions and very importantly cooperation 
with the Natives of Chukotka in Russia on the conservation of the 
shared polar bear population. We also have a cooperative agreement with 
the National Park Service Beringian Heritage Program for polar bear 
studies in Chukotka and with the National Marine Fisheries Service for 
ice seal studies. Ice seals are the primary prey for polar bears
    The Alaska Nanuuq Commission participated as an equal partner with 
the U.S. Fish and Wildlife Service on the negotiation of the polar bear 
treaty with Russia. Both the Service and Nanuuq Commission encouraged 
Russia to include representatives of the Native Peoples of Chukotka and 
for the most part they were included.
    When the Russian Ambassador to the United States Yuri Ushikov 
signed the Treaty on October 16, 2000, five years ago, he declared it 
the most democratic document that Russia had ever agreed to since the 
Treaty includes Alaska and Chukotka Natives on the Joint Commission 
that will set harvest limits and policies.
    For the first time in their history, Native Peoples of Chukotka are 
involved with the management of their marine subsistence resources, due 
largely to the way the Polar Bear Treaty was negotiated. The 
Association of Traditional Marine Mammal Hunters of Chukotka, a real 
grass roots organization participated with the Government of Chukotka 
and the Ministry of Natural Resources in the development of a very 
sound Polar Bear Management Plan for Chukotka. The plan was largely 
modeled on the Alaska Polar Bear Management Plan developed by the Fish 
and Wildlife Service.
    However the Ministry has informed both the Service and Nanuuq 
Commission that the plan including enforcement and protected areas will 
not be put into effect until the U.S. enacts the treaty. This is very 
disturbing for us since the Chukotka Association has informed us that 
polar bears are now being harvested at alarming rates similar to pre-
1973 sport hunting numbers which caused a serious decline in polar bear 
numbers. It is estimated that up to 200 bears are taken in Chukotka 
each year.
    We believe that this polar bear population is healthy and stable, 
however if these large numbers are being harvested there is a real 
threat of a decline in numbers. In Alaska we harvest an average of 30-
40 bears annually out of this population.
    The enactment of the treaty is critical for the conservation of the 
Alaska Chukotka polar bear population. Additionally the Treaty has had 
a dramatic effect on promoting democracy in Chukotka. When we conducted 
interviews of elders in Chukotka with the Chukotka Association on polar 
bear habitat use, they were amazed that anybody, including government 
representatives, were interested in their observations and opinions.
    The Joint Commission created by the Treaty will set harvest limits. 
However in order to maintain sustainable harvest limits we must have a 
better population estimate. We estimate that this population has 2,000 
to 5,000 bears. Conducting a comprehensive population survey is the 
most pressing issue for these bears. That will take money and even if 
the U.S. has to shoulder the bulk of this expense we feel it is worth 
the cost.
    The Alaska Nanuuq Commission and the Association of Traditional 
Marine Mammal Hunters of Chukotka have drafted a Native to Native 
Agreement that will implement the Treaty. This Agreement will 
distribute the quotas and insure compliance with the harvest limits. 
Both the U.S. Fish and Wildlife Service and the Ministry of Natural 
Resources recognize the necessity and value of the involvement of the 
Native organizations in order to make the treaty work.
    This Agreement is modeled after the highly successful volunteer 
Agreement between the Inupiat of the North Slope and the Inuvialuit of 
the Northwest Territories of Canada on the Management of the Beaufort 
Sea Polar Bear Population. In 1980 the Inupiat and Inuvialuit became 
concerned that harvest numbers out of this polar bear population were 
unsustainable and negotiated an agreement that limited the harvest to 
40 bears each, very importantly the Agreement protected females and 
females with cubs. On a 10-year average only 85 percent of the quota 
have been harvested. As a result of this Agreement the Beaufort Sea 
polar bear population is stable and is thought to be growing.
    Mr. Chairman the Alaska Nanuuq Commission want our descendants and 
all people to enjoy polar bears like we have and this legislation will 
guarantee that.
    Thank you for this opportunity.

    The Chairman. Thank you very much. It's my understanding 
that we ratified the Treaty in 2004, I believe, and that this 
legislation really is necessary to give your commission and the 
federal agencies the authority it needs to assure Russia that 
we will comply with the Treaty, is that right Charlie?
    Mr. Johnson. That's correct. We've been--as I mentioned 
we've been told by the Russian authorities that they will not 
enforce the management plans that they developed until the U.S. 
has passed enabling legislation. So this is why we feel this is 
so very necessary.
    The Chairman. Mr. Jones, as part of your Fish and Wildlife 
Service, is your service prepared to back up the Commission in 
this plan, I believe we've got a cooperative agreement now, 
between the Fish and Wildlife Service and the Commission, is 
that correct?
    Mr. Jones. That's correct Mr. Chairman, and we're fully 
prepared to work with the Nanuuq Commission to implement the 
agreement. We think the legislation that you've introduced 
provides a way for us to do that effectively. Once we get the 
legislation hopefully enacted, signed by the President, then we 
will plan to move forward very promptly to implement this, so 
that we can address the issues that Charlie Johnson has 
outlined. Issues which are mostly on the Russian side, but we 
need to do our part, so that then we can sit down with the 
Russians and negotiate harvest limits together.
    The Chairman. Very good. Mr. Co-Chairman, do you have any 
questions?
    Senator Inouye. Thank you. Have the Russians ratified the 
Treaty?
    Mr. Jones. Yes sir they have.
    Senator Inouye. Mr. Jones, you spoke of depletion. I can 
understand extinction, but what do you mean by depletion?
    Mr. Jones. Senator, depletion is a term from the Marine 
Mammal Protection Act, which seeks to maintain an optimum 
sustainable population of the marine mammals that are covered 
by it, when their population declines.
    And there are people who are more expert than I am on the 
scientific aspects of how this determination would be made, but 
when the population declines to the point where it no longer is 
maintaining that sustainable population, the Marine Mammal Act 
provides that you can designate the species as depleted at that 
point. Other provisions of the law come into play. One of those 
is that Native subsistence harvest can be regulated. Our goal 
is to see that the polar bear population never gets to that 
point where it is depleted, because we think that would be a 
failure of our collective management.
    Instead we think we can work together.
    Senator Inouye. What stage are we in now?
    Mr. Jones. Well, Senator, the population is worrisome but 
not at the point yet where we think we would need to make that 
designation of it being depleted. But we certainly see a trend 
that we're concerned about for the future. And this Agreement 
gives us the way to work together first of all. The U.S. 
Government, State of Alaska, and Alaska Native Communities, and 
then working across with counterparts in Russia to address 
harvest so that we can have a good sustainable harvest for 
subsistence purposes to provide for traditional lifestyles and 
traditional use but also make sure that that does not in any 
way threaten the population.
    Senator Inouye. How many do you have in the animal 
population in this area of concern?
    Mr. Jones. Well population numbers are uncertain there. But 
let me look at Charlie Johnson, for the latest figures, 2,000?
    Mr. Johnson. Somewhere between 2,000 and 5,000 based on the 
density observations. The density--the observations of the 
density of polar bears in the Bering Chukchi Sea which we share 
with Chukotka are very similar to those that are in the 
Beaufort Sea. The Beaufort Sea population is very healthy and 
is probably the most studied population in the world. And that 
population is estimated to be right now at 2,500.
    Senator Inouye. What are the mechanisms of enforcement, and 
regulation? How will you enforce the Agreement?
    Mr. Jones. Well Senator, we have to work very closely with 
the Native communities. There are, I believe, 15 villages that 
are involved with the traditional polar bear harvest. And we 
believe that the best enforcement is the enforcement that would 
be through voluntary compliance that the communities themselves 
would enforce upon themselves. Of course there can always be 
the bad actors who might do something outside that.
    The legislation does provide for penalties for that, but 
our goal would be to have cooperative efforts so that we're in 
agreement. We would also work very closely with our Russian 
counterparts and we're prepared to provide help, law 
enforcement, and training, for example, for them so that they 
can do the same on their side of the border. That is where we 
have the real concerns right now. But the Russians have opened 
up and said they want to work with us.
    The Chairman. If the Senator would yield on that. I'm not 
sure the Senator recalls that we prohibited non-Natives from 
harvesting polar bear. Only Natives can harvest polar bear, and 
then only consistent with the findings of the commission 
working with you. Isn't that still correct, Charlie?
    Mr. Johnson. That's correct.
    The Chairman. Is there a similar paradigm for working in 
Russia now, that they could enforce if we pass this law?
    Mr. Johnson. Yes, there is. As I mentioned there's what is 
called the Association of Traditional Marine Mammal Hunters. 
They have five commissions: The Walrus Commission, the Polar 
Bear Commission, a Bowhead Whale Commission, a Beluga 
Commission, and a Salmon and Seal Commission. Right now the 
government has assigned them the responsibility, for example, 
of quotas on various types of marine mammals, such as bowheads 
and gray whale harvests.
    So one of the very possible benefits in Chukotka that this 
Treaty has developed is it has kind of promoted the local 
participation of the Native people with the governments in the 
management of their resources.
    The Chairman. If I could interrupt you. Senator, I do 
believe it is a very great example of international cooperation 
that is coming about because of the two commissions from the 
Indigenous people.
    Senator Inouye. So I gather, Mr. Johnson, that you feel 
that the role that Native peoples play is not only real but 
meaningful?
    Mr. Johnson. Yes it is, it's very much so. And as I 
mentioned, we based this on the voluntary Agreement that the 
Inupiat of the North Slope and the Inuvialuit of the Northwest 
Territories of Canada. We've established with them a quota 
system that is voluntary and on a 10-year average the quota 
would be a total of 800 animals from the last 10 years, 680 
were harvested. So we're only about 85 percent of the quotas 
and we haven't exceeded the quotas.
    Senator Inouye. Thank you very much Mr. Johnson, Mr. Jones.
    The Chairman. Do you anticipate Mr. Jones, a similar quota 
being enforceable in Russia if we pass this legislation?
    Mr. Jones. Well we do. We intend to work very closely with 
the Russian Government. The legislation would set up a 
commission with membership, one each from the Russian 
Government and the Russian Native Communities to parallel one 
each from the U.S. side, and the Alaska Native Community. And 
we would work together with them. The Russians certainly have 
some problems on their side, but they've shown good faith in 
negotiating the Treaty and they are clearly--they are eager to 
get on with it and implement it.
    The Chairman. Will they enforce the rule that only the 
Native people can harvest polar bears and then only for 
subsistence?
    Mr. Jones. This Agreement provides for that. It would only 
be for subsistence harvest, and only then for traditional 
Native handicrafts and subsistence use, and that's also 
consistent with our broader obligations under other Treaties, 
so we think the Russians want to do the right thing and we want 
to help them.
    The Chairman. Any other questions?
    Senator Inouye. No.
    The Chairman. We appreciate very much your coming in, Mr. 
Jones, and particularly Charlie, because I know we didn't put 
in a call to you until last week. We wanted to get this done 
this year if it's possible. I didn't know the Russians were not 
going forward until we do pass the enabling legislation. That 
is really the reason we sent the emergency call to you and I'm 
glad you came down. I appreciate it very much.
    Mr. Johnson. Thank you.
    The Chairman. If there's nothing further to come before the 
Committee we will adjourn until Thursday.
    [Whereupon, at 11:50 a.m., the Committee was adjourned.]

                                  <all>

</pre></body></html>
